September 2005
Report No. 05-038


Division of Supervision and Consumer
Protection’s Risk-focused Compliance
Examination Process
                                                                                              Report No. 05-038
                                                                                                September 2005
                                   Division of Supervision and Consumer Protection’s
                                   Risk-Focused Compliance Examination Process
                                   Results of Audit

Background and                     We found that DSC examiners generally complied with the policies and
Purpose of Audit                   procedures related to risk-scoping compliance examinations and that the Risk
                                   Profile and Scoping Memorandums prepared by examiners provided an adequate
The FDIC is responsible for
                                   basis for planned examination coverage. The examiners reviewed bank policies,
evaluating financial institution   procedures, disclosures, and forms for compliance with consumer protection
compliance with consumer           laws and regulations for each examination we reviewed and planned for
protection laws and                transaction testing or spot checks in all compliance areas over the course of two
regulations. To evaluate           consecutive examinations – a period of 2 to 6 years, depending on an
compliance, the FDIC               institution’s size and ratings. Additionally, examiners conducted transaction
conducts examinations of           testing or spot checks in those areas for which violations had been found at
institutions’ compliance           previous compliance examinations.
practices. In June 2003, the
FDIC’s Division of                 However, we found that examination documentation did not always show the
Supervision and Consumer           transaction testing or spot checks conducted during the on-site portion of the
Protection (DSC) revised its       examinations, including testing to ensure the reliability of the institutions’
program for examining              compliance review functions. Examiners also did not always document whether
institutional compliance with      the examination reviewed all the compliance areas in the planned scope of
consumer protection laws and       review. As a result, DSC cannot assure that the extent of testing was appropriate
regulations. Under the new         except for those areas in which examiners had identified violations and included
program, DSC compliance            them in Reports of Examination.
examinations combine a risk-
based examination process
with an in-depth evaluation of     Recommendation and Management Response
an institution’s compliance
management system, resulting       We recommended that DSC clarify and reinforce requirements that examiners
in a top-down, risk-focused        adequately document the scope of the work performed, including transaction
approach to examinations.          testing and spot checks of the reliability of the institutions’ compliance review
                                   functions, during the on-site portions of compliance examinations. FDIC
The overall audit objective        management agreed with the recommendation and has taken corrective action.
was to determine whether
DSC’s risk-focused                                             Consumer Protection Laws and Regulations
compliance examination                               Lending                                              Specialty
program results in                 Truth in Lending                               Community Reinvestment Act Technical Requirements
examinations that are              Equal Credit Opportunity Act                   Advertising of Membership
                                   Flood Insurance                                Branch Closings
adequately planned and             Real Estate Settlement Procedures Act          Right to Financial Privacy
effective in assessing financial   Fair Credit Reporting                          Privacy of Consumer Financial Information
institution compliance with        Credit Practices Rule                          Non-Deposit Products
                                   Fair Housing Act                               Electronic Banking
consumer protection laws and       Homeownership Counseling                       Fair Debt Collection Practices
regulations.                       Homeowners Protection Act                      Interstate Banking & Branching Efficiency Act
                                   Home Mortgage Disclosure Act                   Children’s Online Privacy Protection Act
                                   Preservation of Consumer Claims and Defenses
                                   Consumer Leasing
                                                                                Deposit
_____________________                                               Electronic Funds Transfer
                                                                    Truth in Savings
__                                                                  Expedited Funds Availability
To view the full report, go to                                      Interest on Deposits
www.fdicig.gov/2005reports.asp     Source: DSC Compliance Examination Manual.
                            TABLE OF CONTENTS
BACKGROUND                                                               1

RESULTS OF AUDIT                                                          3

DOCUMENTATION OF ON-SITE TESTING PERFORMED DURING                         5
COMPLIANCE EXAMINATIONS

     Documenting Compliance Examination Findings and Transaction          5
     Testing

      Documenting Reviews of Institutions’ Compliance Review Functions   6

      Examiner Documentation of On-site Transaction Testing and           6
      Spot Checks

      Recommendation                                                      7

CORPORATION COMMENTS AND OIG EVALUATION                                  7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                            8

APPENDIX II: RISK-FOCUSED COMPLIANCE EXAMINATION                         11
             GUIDELINES

APPENDIX III: SIGNIFICANT VIOLATIONS CONTAINED IN THE                    12
              REPORTS OF EXAMINATION FOR THE SAMPLE
              BANKS

APPENDIX IV: CORPORATION COMMENTS                                        13

APPENDIX V: MANAGEMENT RESPONSE TO                                       15
            RECOMMENDATION

TABLES
Table 1: Consumer Protection Laws and Regulations                        2
Table 2: Audit Results on Risk-focused Compliance Examinations           4
Federal Deposit Insurance Corporation                                                             Office of Audits
801 17th Street NW, Washington, DC 20434                                             Office of Inspector General


DATE:                              September 23, 2005


MEMORANDUM TO: Christopher J. Spoth, Acting Director
               Division of Supervision and Consumer Protection



FROM:                              Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                   Assistant Inspector General for Audits


SUBJECT:                           Division of Supervision and Consumer Protection’s Risk-focused
                                   Compliance Examination Process
                                   (Report No. 05-038)


This report presents the results of our audit of the Federal Deposit Insurance Corporation (FDIC)
Division of Supervision and Consumer Protection’s (DSC) process for risk-focused compliance
examinations of FDIC-supervised institutions. The overall audit objective was to determine
whether DSC’s risk-focused compliance examination process results in examinations that are
adequately planned and effective in assessing financial institution compliance with consumer
protection laws and regulations. Specifically, we determined whether DSC examiners are
adequately risk-scoping compliance examinations, conducting appropriate levels of transaction
testing, and making sound risk-scoping decisions in relying on the work of the financial
institutions’ internal or external compliance review functions. Appendix I of this report
discusses our objective, scope, and methodology in detail.

BACKGROUND

The FDIC is responsible for evaluating FDIC-supervised financial institutions’ compliance with
federal consumer protection laws and regulations, including institutional performance under the
Community Reinvestment Act (CRA). To evaluate compliance, the FDIC conducts
examinations of institutional practices regarding fair lending, privacy, and other consumer
protection laws. During the compliance examination, examiners must ensure that institutions
have adequately addressed all areas related to the rules and regulations listed in Table 1 on the
following page.
Table 1: Consumer Protection Laws and Regulations
                      Lending                                                  Specialty
    Truth in Lending                                  Community Reinvestment Act Technical Requirements
    Equal Credit Opportunity Act                      Advertising of Membership
    Flood Insurance                                   Branch Closings
    Real Estate Settlement Procedures Act             Right to Financial Privacy
    Fair Credit Reporting                             Privacy of Consumer Financial Information
    Credit Practices Rule                             Non-Deposit Products
    Fair Housing Act                                  Electronic Banking
    Homeownership Counseling                          Fair Debt Collection Practices
    Homeowners Protection Act                         Interstate Banking & Branching Efficiency Act
    Home Mortgage Disclosure Act                      Children’s Online Privacy Protection Act
    Preservation of Consumer Claims and Defenses
    Consumer Leasing
                                                 Deposit
                                          Electronic Funds Transfer
                                          Truth in Savings
                                          Expedited Funds Availability
                                          Interest on Deposits
    Source: DSC Compliance Examination Manual.



Noncompliance with these laws and regulations by financial institutions can result in civil
liability and negative publicity as well as the FDIC’s imposition of formal or informal
supervisory corrective actions to correct the identified violations. Some consumer protection
laws and regulations require financial institutions to provide consumers with information
intended to help in making informed decisions about financial services and products. As part of
the compliance examination process, the FDIC reviews the information and disclosures that are
provided to consumers by FDIC-supervised institutions in accordance with consumer protection
laws and regulations. Also, DSC considers an institution's compliance with fair lending, privacy,
and other consumer protection laws and its performance under the CRA when reviewing an
institution's application for entry into or expansion within the insured depository institution
system. During the 2-year period from July 1, 2003 through June 30, 2005, DSC conducted
4,153 compliance and CRA examinations.

In June 2003, DSC revised its program for examining institutions for compliance with consumer
protection laws and regulations. Under the Revised Compliance Examination Procedures
(Transmittal No. 2003-021, dated June 6, 2003), DSC compliance examinations combined a risk-
based examination process with an in-depth evaluation of an institution’s compliance
management system (CMS),1 resulting in a top-down, risk-focused approach to examinations.
The risk-focused approach is intended to make the examination process more effective and
efficient and reduce the examination burden on banks. The risk-focused approach also helps
examiners in determining the depth of review of each functional area and improves the
consistency of analysis across regional and field offices. The risk-focused approach recognizes
that the banking industry’s compliance responsibilities continue to grow and become more
complex with changes in financial products and services. Moreover, the focus on an institution’s

1
 A financial institution uses its CMS to identify, monitor, and manage its compliance responsibilities and risks. A
CMS includes (1) management and director oversight; (2) a compliance program (policies and procedures, training,
monitoring, and complaint response); and (3) audit procedures applied by the institution’s internal or external
compliance review function.
                                                         2
compliance program places emphasis on the institution’s responsibility to ensure it complies with
consumer protection laws.

Effective June 30, 2004, DSC made additional modifications to the examination procedures as
they relate to the contents of the Report of Examination and the risk-focused planning documents
– the Risk Profile and Scope Memorandum (RPSM) and the Compliance Information and
Document Request (CIDR). Appendix II provides a detailed description of these modifications.

Compliance examinations are conducted every 12 to 36 months, depending on an institution’s
size and the compliance and CRA ratings assigned at the most recent examination.2 Each
compliance regulation and law is not reviewed at every compliance examination. If no
transaction testing in a particular regulatory area has been conducted in the previous
examination, a spot check should be conducted at the current examination, even if there are no
risk indicators.3 For reporting purposes, the risk-focused examination approach combines the
results of the CRA evaluation and the compliance examination into one report when CRA
performance is evaluated at alternate examinations. The single report focuses on an institution’s
CMS and includes only significant violations. (Appendix III provides the significant violations
found during the compliance examinations for the banks in our sample.) Examiners identify
other violations separately to bank management, and they are tracked by the FDIC.


RESULTS OF AUDIT

We found that DSC examiners generally complied with the policies and procedures related to
risk-scoping compliance examinations and that the RPSMs prepared by examiners provided an
adequate basis for planned examination coverage. The examiners reviewed bank policies,
procedures, disclosures, and forms for compliance with consumer protection laws and
regulations for each examination we reviewed and planned for transaction testing or spot checks
in all compliance areas over the course of two consecutive examinations – a period of 2 to
6 years, depending on an institution’s size and ratings.

However, we found that examination documentation did not always show the transaction testing
or spot checks conducted during the on-site portion of the examinations, including testing to
ensure the reliability of the institutions’ compliance review functions. Also, examiners did not
always document whether the examination had reviewed all the compliance areas in the planned
scope of review. As a result, DSC cannot assure that the extent of testing was appropriate except
for those areas in which examiners had identified violations and included them in Reports of
Examination. Table 2 on the next page shows the components of a risk-focused compliance
examination and our related audit results.




2
  Regional Director Memorandum No. 00-001 entitled, Revisions to the Compliance and CRA Examination
Frequency Schedule, dated September 19, 2000, revised the examination frequency schedule for compliance and
CRA examinations to address statutory changes contained in the Gramm-Leach-Bliley Act of 1999.
3
  Transaction testing involves reviewing a sample of transactions, while spot checks involve reviewing a few
transactions.
                                                       3
Table 2: Audit Results on Risk-focused Compliance Examinations
     Risk-focused
     Compliance
                                    Component Description                            Results of Audit
     Examination
     Component
                                                                    Examiners generally complied with policies
                           In preparing for a compliance examination,
                           examiners send each bank a Compliance    and procedures related to risk-scoping
                           Information and Document Request that    compliance examinations, in that:
                           provides examiners with sufficient       (1) justification for the extent of the work to
                                                                    be conducted for each compliance area was
                           information to begin an off-site evaluation
                           of an institution’s compliance managementprovided in the RPSMs, (2) a justification
                                                                    for areas not tested during the examination
                           system. At this point, emphasis is placed on
Off-site CMS Review                                                 was documented, (3) areas not tested at the
                           reviews of written practices, policies, and
                                                                    previous examination were included in the
                           procedures; bank forms and disclosures; and
                           bank audit data. This off-site review    current examination scope for transaction
                                                                    testing or spot checks, and (4) areas for
                           provides the initial assessment of the quality
                                                                    which violations had been found at previous
                           of an institution’s CMS in light of the risks
                                                                    compliance examinations were included in
                           associated with the level and complexity of
                           the institution’s business operations andthe scope of the current examination for
                           product and service offerings.           transaction testing or spot checks.
                                                                    Examiners generally complied with risk-
                           The results of the off-site assessment of the
                           CMS, to include the proposed on-site     scoping documentation requirements, as
                           testing plan, are documented in the RPSM.follows: (1) requirements for preparing the
                           The RPSM is designed to assess the CMS,  RPSM were met for the banks in our
                           operational areas, and issues to be      sample; and (2) the RPSMs provided an
                                                                    adequate analysis of the bank’s CMS and
                           investigated or targeted. In addition, the
                           RPSM contains the Risk Profile Matrix,   were broad enough to provide an
                                                                    understanding of the organizational
                           which summarizes perceived risk in each of
                           the CMS elements regarding major         structure of an institution, its related
Development of the
                                                                    activities, and compliance risks associated
                           operational areas. Examiners use the matrix
RPSM
                                                                    with each of the institution’s activities. In
                           to develop a compliance risk profile for an
                           institution, using various sources of    addition, the use of RPSMs as a planning
                                                                    tool provides examiners an adequate
                           information about the institution’s business
                                                                    method for making an initial off-site
                           lines, organizational structure, operations,
                           and past supervisory performance.        assessment of whether the institutions’
                                                                    management and board of directors identify,
                                                                    understand, and adequately control the
                                                                    compliance risks facing the financial
                                                                    institution.
                        During the on-site portion of the risk-     There is insufficient evidence in
                        focused compliance examination, examiners examination workpapers or reports for DSC
                        determine actual bank practice through      to assure that the extent of on-site
                        extensive discussions with bank             transaction testing and spot checks was
                        management and staff, reviews of relevant   appropriate. Compliance examination
                        documents, and testing of selected bank     workpapers were not always maintained in
                        transactions. The extent of transaction     a manner that ensures the work performed
On-site Transaction
                        testing and spot checks is based on the     during the on-site portion of the review is
Testing and Spot
                        examiner’s assessment of the institution’s  adequately documented, including
Checks
                        compliance risk profile, such as whether an transaction testing and spot checks to ensure
                        operational area is determined to be high   the reliability of the institution’s compliance
                        risk or the institution’s compliance        review function. Also, examiners did not
                        management efforts appear weak.             always document whether the examination
                                                                    reviewed all the compliance areas in the
                                                                    planned scope of review.
Source: DSC Compliance Examination Manual and Office of Inspector General (OIG) audit results.



                                                         4
DOCUMENTATION OF ON-SITE TESTING PERFORMED DURING
COMPLIANCE EXAMINATIONS

Examiners did not adequately document the scope of the work performed during the on-site
portion of the compliance examinations. Specifically, for the examinations we reviewed,
examination workpapers did not always contain sufficient information to identify examiner
transaction testing or spot checks conducted during the on-site portion of examinations or
whether the examination reviewed all areas in the planned scope of review. Documentation is
lacking because examiners did not comply with DSC policy that requires they document their
work. As a result, DSC cannot assure that the extent of testing was appropriate for assessing
institutional compliance with regulations except for those areas in which examiners had
identified violations and included them in Reports of Examination.

Documenting Compliance Examination Findings and Transaction Testing

DSC’s June 2003 Revised Compliance Examination Procedures (Transmittal No. 2003-021,
dated June 6, 2003) section entitled, Documenting Examination Findings, states that examination
documentation should demonstrate a clear trail of decisions and supporting logic within a
specified area. Documentation should provide a written record of the examiner’s decisions and
analysis and provide support for facts or opinions in the Report of Examination. A well-
constructed examination documentation file provides sufficient information to reconstruct the
examiner’s decision process for each step of the examination. The information should provide
support for the examiner’s decision to include or exclude a regulation or area of review from the
scope of the examination and for significant findings. Additionally, examiners should conduct
on-site transaction testing for the operational areas included in the scope of the review.4 The
number of transactions and the particular regulatory requirements to be reviewed should be
carefully tailored to weaknesses identified in the CMS as it relates to specific operational areas.
In addition, the revised procedures instruct examiners to prepare an examiner summary
workpaper for each regulation or area reviewed. This summary, in conjunction with the RPSM,
should allow subsequent examiners to clearly identify the scope of work performed and the basis
for the examiner’s conclusion.

DSC’s Compliance Examination Manual, Appendix H, entitled, Sampling Guidelines for
Compliance and CRA, instructs examiners to use judgment in determining the number of loans to
be reviewed, depending upon specific circumstances. In addition, not all loan types or
characteristics must be sampled at each examination; however, “emphasis should be placed on
those types of loans that evidenced concerns in the past and those that could result in
reimbursable violations.” The policy also states that (1) statistical sampling is the preferred
method and should be used to the greatest extent possible; (2) the examiner should clearly



4
  According to the Revised Compliance Examination Procedures, after analyzing the CMS elements in relationship
to a bank’s operational risks, examiners decide the necessary transaction sampling and testing. The severity of CMS
weaknesses and operational risk will dictate the intensity of transaction testing; greater weakness and higher risk
will generally lead to the review of more transactions. If the examiner finds a moderate degree of risk, then
sufficient testing should be done to show support for a conclusion. If no transaction testing in a particular regulatory
area was done in the previous examination, then examiners should perform a spot check of transactions at the
current examination, even if there are no risk indicators.

                                                           5
document in the workpapers the sampling method utilized, loan universe and sample size(s), and
sampling results; and (3) examiners should select independent loan samples for the compliance,
CRA, and fair lending portions of the examination.

In June 2004, DSC issued Updated Compliance Examination Procedures, Transmittal
No. 2004-032, effective June 30, 2004. According to the June 2004 procedures, the RPSM will
be used solely for pre-examination planning. Examiners should no longer update the RPSM to
reflect changes in the examination scope or to duplicate findings contained in the Report of
Examination. However, examination workpapers need to reflect any material changes in scope
and the support for those changes. Material increases or reductions in the examination scope
must also be noted in examination workpapers.

Documenting Reviews of Institutions’ Compliance Review Functions

The Updated Compliance Examination Procedures require examiners to conduct documentation
reviews and to interview management regarding the assessment of a bank’s compliance review
functions. The procedures provide a list of questions for the interview and a list of documents
that should be reviewed. Based on the interviews and materials reviewed, examiners are to
develop and document a preliminary assessment of the institution’s performance related to
compliance reviews and determine whether the institution’s compliance review function is
generally strong, adequate, or weak and the assumptions on which the assessment is based. This
determination is initially made off-site by an examiner and is based on the examiner’s
assessment of the scope and frequency of the institution’s compliance reviews, the adequacy of
written compliance reports, board of director and senior management responses to those reports,
and the institution’s follow-up procedures to verify that the corrective actions were lasting and
effective. In addition, the section of the Compliance Examination Manual entitled, Transaction
Sampling and Testing, states that depending on the importance of a component, the examiner
may find it appropriate to spot check a few transactions to show support for a favorable
conclusion by the compliance review function. If no transaction testing in a particular regulatory
area has been done in the previous examination, then spot checks should be done at the current
examination, even if there are no risk indicators. If testing is not considered necessary to support
conclusions about an element of the CMS or with respect to a particular operational area,
examiners should retain appropriate documentation in the workpapers and include comments in
the RPSM and/or the compliance examination report to support this conclusion.

Examiner Documentation of On-site Transaction Testing and Spot Checks

Our review of compliance examination workpapers showed that for 20 of the 36 examinations
we reviewed, examiners had not documented the extent of transaction testing or spot checks they
performed during the on-site portion of the examination. Some of the Reports of Examination
contained comments related to the transaction testing and spot checks conducted. However, the
comments related only to areas of violations identified during the examination and did not
address the entire scope of the examination. As a result, we could not determine whether all
areas included in the planned examination scope had been reviewed or to what extent examiners
tested or spot checked transactions unless examiners had identified violations in compliance
areas in the Report of Examination.



                                                 6
As a result of the lack of documentation to support on-site transaction testing and spot checks
conducted during compliance examinations, DSC cannot assure that the extent of testing was
appropriate except for those areas in which examiners identified violations and included them in
Reports of Examination. In addition, the lack of examination documentation can affect
subsequent examinations in that it will be more difficult for examiners to decide the appropriate
scope of those examinations. DSC management plans to reassess the revised compliance
examination procedures in relation to using the RPSM solely for pre-examination planning.

RECOMMENDATION

We recommend that the Director, DSC, clarify and reinforce requirements that examiners
adequately document the scope of the work performed, including transaction testing and spot
checks of the reliability of the institutions’ compliance review functions, during the on-site
portion of compliance examinations.


CORPORATION COMMENTS AND OIG EVALUATION

On September 16, 2005, the Acting Director, DSC, provided a written response to the draft
report. The response is presented in Appendix IV of this report. We did not include the
attachments to DSC’s response in Appendix IV, which were excerpts from Regional Director
Memorandum No. 2005-035, Revised Compliance Examination Procedures, dated August 18,
2005. DSC concurred with the recommendation, stating that guidance had been issued related
to:

¾   documenting changes in the scope of an examination,
¾   documenting spot checks of regulations,
¾   providing cross checks to additional information available in Examiner Summaries, and
¾   providing descriptions of examination procedures used to conduct the examination.

This guidance was distributed to all DSC staff on August 31, 2005.

OIG Evaluation: We determined that the agreed-to corrective action has been completed and is
effective. This recommendation is resolved, dispositioned, and closed.

Appendix V contains a summary of management’s response to the recommendation and the
status of the recommendation as of the date of this report.




                                                7
                                                                                                   APPENDIX I

                           OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The overall objective of this audit was to determine whether DSC’s risk-focused compliance
examination process results in examinations that are adequately planned and effective in
assessing financial institution compliance with consumer protection laws and regulations.
Specifically, we determined whether DSC examiners are adequately risk-scoping compliance
examinations and conducting appropriate levels of transaction testing and making sound risk-
scoping decisions when relying on the work of the financial institutions’ internal or external
compliance review functions. We performed our audit from October 2004 through August 2005
in accordance with generally accepted government auditing standards.

Scope and Methodology

The scope of the audit was limited to a review of banks examined under the revised DSC risk-
focused compliance examination policies and procedures in the Revised Compliance
Examination Procedure, dated June 30, 2004. To accomplish our objective, we reviewed the
most current and the prior compliance examination reports and corresponding examination
workpaper files, policies, and procedures related to the compliance review function, prior OIG
audit reports and DSC Internal Review reports, laws and regulations, and management tracking
reports for each examination. We also interviewed DSC management officials and staff at FDIC
headquarters and three regional offices.

The judgmental sample included 36 FDIC-supervised banks for which compliance examinations
had been conducted from August 2003 through November 2004 at 3 FDIC regional offices. Our
sample included 14 “1” rated banks, 14 “2” rated banks and 8 “3” rated banks.5 The asset sizes
of the banks ranged from $8.5 million to $1.2 billion. The compliance examinations in our
sample resulted in 11 banks whose compliance ratings were downgraded, 7 banks whose ratings
were upgraded, and 18 banks whose ratings remained the same. Of the 36 banks, 8 had
corrective supervisory actions imposed on them as a result of the compliance examinations:
2 banks were issued Memorandums of Understanding, and 6 banks were encouraged to adopt
Bank Board Resolutions.6 The eight banks had a compliance examination rating of “3.”

Pertinent Laws and Regulations

Compliance examinations are the primary means the FDIC uses to determine whether a financial
institution is meeting its responsibilities to comply with the requirements of federal consumer
laws and regulations. DSC has established policies and procedures for risk-focused compliance
examinations in the FDIC Compliance Examination Manual. For the banks in our sample, the
procedures generally were followed, although examination workpapers did not always contain
sufficient information to identify examiner transaction testing or spot checks conducted during


5
  The FDIC follows the Uniform Interagency Consumer Compliance Rating System approved by the Federal
Financial Institutions Examination Council in 1980.
6
  Informal actions such as Bank Board Resolutions and Memorandums of Understanding are voluntary
commitments made by the board of directors of a financial institution. They are neither publicly disclosed nor
legally enforceable.
                                                         8
                                                                                                 APPENDIX I

the on-site portion of examinations or whether the examination reviewed all areas in the planned
scope of review. Our review did not find any instances of FDIC noncompliance with pertinent
laws and regulations.

Reliance on Computer-based Data, Government Performance and Results Act, Fraud and
Illegal Acts, and Internal Control

Validity and Reliability of Data from Computer-based Systems

We used computer-based data for background information and in generating a universe of
examinations from which to select our sample. We reviewed examination records that supported
data from the DSC System of Uniform Reporting of Compliance and CRA Examinations
(SOURCE)7 and the Scheduling, Hours, and Reporting Package (SHARP)8 reporting systems to
determine the accuracy of data used during the audit. The SOURCE system is used to:
(a) generate examination schedules that support workload projections by incorporating quarterly
planning and benchmark hours, (b) capture examination summary information, (c) store
examination documents for divisional sharing and historical reference, and (d) support
legislatively mandated reporting. The SHARP system is an hours-based tracking system that
provides uniformity in collecting examination hours information. Based on our review, we
found that the SHARP system does not provide detailed information on work conducted by
examiners. Also, the SHARP system does not have time codes for all of the regulations
reviewed during compliance examinations. According to our discussions with DSC staff,
SHARP is not used to track or monitor examination coverage of regulations – the system is more
useful for field office management.

Performance Measures

In fulfilling its primary supervisory responsibilities, the FDIC pursues two strategic goals:
FDIC-supervised institutions are safe and sound and consumers’ rights are protected, and FDIC-
supervised institutions invest in their communities.9

Two strategic objectives support the consumer rights strategic goals. The first strategic objective
is that consumers have access to easily understood information about their rights and the
disclosures due them under consumer protection and fair lending laws. The FDIC’s annual
performance goals related to this objective are:

¾ Provide effective outreach and technical assistance on topics related to the CRA, fair lending,
  and community development.

¾ Meet the statutory mandate to investigate and respond to consumer complaints about FDIC-
  supervised financial institutions.

7
  SOURCE is a management support and decision tool that replaced the Banking Information Tracking System
(BITS) Compliance Statistical System as the system of record for the compliance and CRA examination program
and is extensively used by compliance field supervisors, examiners, review examiners, and Washington office policy
staff. SOURCE differs from its predecessor BITS in that SOURCE is used not only to support reporting
requirements and a system of record, but also to provide substantial task support for examination staff.
8
  All DSC employees use SHARP to track examination hours.
9
  The goals are stated in the FDIC 2005-2010 Strategic Plan and the FDIC 2005 Annual Performance Plan.
                                                        9
                                                                                              APPENDIX I

The second strategic objective is that FDIC-supervised institutions comply with consumer
protection, CRA, and fair lending laws. The FDIC’s annual performance goals related to this
objective are:

¾ Conduct CRA and compliance examinations in accordance with the FDIC’s examination
  frequency policy.

¾ Take prompt and effective supervisory action to monitor and address problems identified
  during compliance examinations of FDIC-supervised institutions that receive a “4” or “5”
  rating for compliance with consumer protection and fair lending laws.

None of the strategic goals, strategic objectives, or performance goals related directly to the
objectives of our audit.

Fraud and Illegal Acts

Our audit program did include steps for providing reasonable assurance of detecting fraud or
illegal acts. We did not identify any illegal acts or abuse or potential areas susceptible to illegal
acts or abuse.

Internal Controls Reviewed

During the audit, we gained an understanding of relevant control activities related to compliance
examinations by examining DSC policies and procedures as presented in the DSC’s Compliance
Examination Manual and Regional Directors Memoranda. We identified DSC’s internal controls
related to the risk-focused examination process for compliance examinations. Specifically, we
reviewed the systems used for measuring, monitoring, and reporting program performance;
compliance with laws, regulations, policies, and procedures; and the reliability of computer-
based data. We also reviewed the results of DSC Internal Control Reviews related to compliance
examinations. We identified documentation weaknesses related to the on-site portion of
compliance examinations as discussed in the finding section of this report.

Summary of Prior Audit Coverage

On March 26, 2002, the OIG issued Audit Report 02-009, Division of Compliance and
Consumer Affairs’ Risk-Scoping Process for Fair Lending Examinations, on the fair lending
examination risk-scoping process as conducted by the Division of Compliance and Consumer
Affairs.10 The objective of the audit was to assess: (1) the adequacy of the Federal Financial
Institutions Examination Council (FFIEC) Interagency Fair Lending Examination Procedures for
the FDIC’s pre-examination planning for fair lending examinations of small banks, (2) the
FDIC’s implementation of the FFIEC interagency procedures as they relate to identifying fair
lending risks during the off-site pre-examination planning phase of the fair lending reviews, and
(3) the related DCA internal controls. The 2002 audit focused on the FDIC’s application of the
FFIEC Interagency Fair Lending Procedures and did not directly relate to the scope of our audit.


10
  Effective June 30, 2002, the FDIC’s Division of Supervision and Division of Compliance and Consumer Affairs
(DCA) were merged to form the new DSC.
                                                      10
                                                                               APPENDIX II

            RISK-FOCUSED COMPLIANCE EXAMINATION GUIDELINES

Effective June 30, 2003, DSC implemented revised procedures to enhance the FDIC's
compliance examination process by focusing increased attention on an institution’s compliance
management system. As noted in the DSC Memorandum entitled, Revised Compliance
Examination Procedures, Transmittal No. 2003-021, dated June 6, 2003, the revised procedures
combined the risk-based examination process with an in-depth evaluation of an institution’s
CMS. Examiners were required to evaluate how well an institution’s compliance responsibilities
are administered and managed, consistent with the level and complexity of its operations. The
purpose of this approach was to allow examiners to devote more attention to those institutions
requiring additional supervisory attention to help improve weak compliance functions and reduce
the risks of future noncompliance. The new procedures did not change existing fair lending
examination procedures or CRA performance evaluations. According to the revised procedures,
all financial institutions would benefit from a comprehensive assessment of compliance
management systems. The examiner’s identification of root causes of compliance management
deficiencies and regulatory violations would serve as a blueprint for helping institution
management improve its operations. Moreover, the revised compliance examination procedures
would elevate the importance of comprehensive compliance risk management by institutions of
all sizes.

Effective June 30, 2004, DSC updated the compliance examination procedures. As noted in the
DSC Memorandum entitled, Updated Compliance Examination Procedures, Transmittal
No. 2004-032, dated June 30, 2004, modifications to the examination procedures were centered
in three distinct components of the compliance examination program: Report of Examination
comments, the RPSM, and the CIDR.

¾ The Report of Examination changes included guidance to: (a) reduce examination scope
  comments, (b) consolidate examiner recommendations and management’s commitment to
  corrective action, (c) consolidate the summary assessment of compliance management, and
  (d) omit the Supervisory Comments page in most instances.

¾ The RPSM requirements were changed to ensure that the RPSM would be used solely for
  pre-examination planning. Upon completion of the RPSM, the Examiner-in Charge is
  required to submit it to the Field Supervisor for review and approval. Once the RPSM is
  approved by the Field Supervisor, examiners no longer need to update the RPSM to reflect
  changes in examination scope or to duplicate findings contained in the Report of
  Examination.

¾ To better tailor the CIDR to the unique circumstances of each institution, the following
  approaches were made available for examiners when requesting information from banks. For
  compliance examinations of large, complex banking organizations, examiners should use the
  existing CIDR. For compliance examinations of smaller, less complex institutions,
  examiners should use the “Interview Sheet” and a revised Compliance Information and
  Documentation Request (CIDR II) to simplify the information-gathering process by
  removing tables and separating information requests from document requests.




                                              11
                                                                                   APPENDIX III

           SIGNIFICANT VIOLATIONS CONTAINED IN THE REPORTS OF
                   EXAMINATION FOR THE SAMPLE BANKS
Significant violations found during the compliance examinations for the 36 banks in our sample
are identified below. Significant violations are defined as deficiencies that may adversely impact
the financial institution. We found that 75.6 percent of the total significant violations related to
seven regulations: Truth in Lending, Equal Credit Opportunity, Real Estate Settlement
Procedures Act, Truth in Savings, Home Mortgage Disclosure Act, Flood Insurance, and
Expedited Funds Availability. The scope of this audit did not include a detailed review of the
significant violations; however, we plan to include an audit of supervisory actions taken for
compliance-related violations in our Fiscal Year 2006 Assignment Plan.

            Lending Regulation Violations                                  # of Banks
            Truth in Lending (TIL)                                              17
            Equal Credit Opportunity Act (ECOA)                                 17
            Flood Insurance                                                     11
            Real Estate Settlement Procedures Act (RESPA)                       17
            Fair Credit Reporting                                                4
            Credit Practices Rule                                                0
            Fair Housing Act                                                    2
            Homeownership Counseling                                             1
            Homeowners Protection Act (HPA)                                      1
            Home Mortgage Disclosure Act (HMDA)                                 13
            Preservation of Consumer Claims and Defenses (PCCD)                  0
            Consumer Leasing                                                     0
            Deposit Regulation Violations                                  # of Banks
            Electronic Funds Transfer (EFT)                                      7
            Truth in Savings (TIS)                                              16
            Expedited Funds Availability (EFA)                                  11
            Interest on Deposits                                                 2
            Specialty Regulation Violations                                # of Banks
            Community Reinvestment Act Technical Requirements                    4
            Advertising of Membership                                            1
            Branch Closings                                                      0
            Right to Financial Privacy Act                                       4
            Privacy of Consumer Financial Information                            2
            Non-Deposit Products                                                 5
            Electronic Banking                                                   0
            Consumer Complaints                                                  0
            Fair Debt Collection Practices                                       0
            Interstate Banking & Branching Efficiency Act (IBBEA)                0
            Children’s Online Privacy Protection Act (COPPA)                     0




                                                   12
                       Appendix IV



CORPORATION COMMENTS
     APPENDIX 1V




14
                                                                                                                                                    APPENDIX V


                                                   MANAGEMENT RESPONSE TO RECOMMENDATION
     This table presents the management response on the recommendation in our report and the status of the recommendation as of the date
     of report issuance.
                                                                                                                                          Open
                                                          Completion Date         Monetary       Resolved:a     Dispositioned:b            or
                  Corrective Action for                                           Benefits       Yes or No        Yes or No              Closedc
               Recommendation: Taken or
                    Planned/Status
         DSC concurred with the
         recommendation. DSC clarified and
         reinforced requirements that examiners
         adequately document the scope of the
         work performed, including transaction
         testing and spot checks of the
         reliability of the institutions’                  August 31, 2005           None           Yes                Yes                Closed
         compliance review functions, during
15




         the on-site portion of compliance
         examinations. This clarification was
         provided in a written memorandum
         entitled, Revised Compliance
         Examination Procedures, which was
         issued to all DSC personnel.

     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
           (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
           (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
               management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
